CORRECTIONAL INSTITUTION
dn 9-MQJ
FOR MAILING
RY fP

~ _________-

f

NO: 20-8205
■;

IN THE
SUPREME COURT OF THE UNITED STATES

In Re: John L. McKenzie

PROOF OF SERVICE
/i/,
I, John L. McKenzie, do swear or declare that on this date,
/('|
2021, as required by Supreme Court Rule 29, I have served the
enclosed Petition for Rehearing on each party to the above proceeding or that
party's counsel, and on every other person required to be served, by depositing an
envelope containing the above documents in the United States mail properly
addressed to each of them and with first-class postage prepaid, or by delivery to a
third-party commercial carrier for delivery within 3 calendar days.

The names and addresses of those served are as follows:
Office of the Attorney General, 1515 N. Flagler Dr., Suite 900, West Palm Beach,
FL, 33401; Office of the Governor, The Capitol Pl-01, Tallahassee, FL, 32399.
I declare under penalty,of perjury that the foregoing is true and correct.
Executed on
-J i//w / V
,2021.
/

RECEIVED
JUL 2 2 2021

